OIG Investigative Reports, Marrero, LA.  June 10, 2013 - Shanera Washington-Sylve Charged With Financial Aid Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
THE UNITED STATES ATTORNEY'S OFFICE
EASTERN DISTRICT of LOUISIANA
NEWS
Shanera Washington-Sylve Charged With Financial Aid Fraud
FOR IMMEDIATE RELEASE
June 10, 2013
SHANERA WASHINGTON-SYLVE, age 46, a resident of Marrero, Louisiana, was charged in a one-count bill of information filed today for financial aid fraud,  announced U. S. Attorney Dana J. Boente.
According to the Bill of Information, WASHINGTON-SYLVE submitted or caused to be submitted false Free Application for Federal Student Aid ("FAFSA") forms, on behalf of her daughter for the 2009 through 2013 academic years, falsely stating that she was "single".  As a result of WASHINGTON-SYLVE's false statements in the applications, her daughter fraudulently received approximately $23,196 in Federal Pell Grants from the United States Department of Education, an agency and department of the United States.
If convicted, WASHINGTON-SYLVE faces a maximum term of imprisonment of five years, a $20,000 fine, three years of supervised release following any term of imprisonment, and a $100 special assessment.
The case was investigated by the U.S. Department of Education, Office of Inspector General.  The case is being prosecuted by Assistant U. S. Attorney Julia K. Evans.
U. S. Attorney Boente reiterated that the Bill of Information is merely a charge and that the guilt of the defendant must be proven beyond a reasonable doubt.
( Download Bill of Information   )
Top
Printable view
Last Modified: 06/20/2013
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov